More Information? Call the Assistant U.S. Attorney or other contact listed below to see if more
information is available.
News on the Internet: News Releases, related documents and advisories are posted short-term
at our website, along with links to our archived releases at the Department of Justice in
Washington, D.C. Go to: http://www.usdoj.gov/usao/nj/press/
Assistant U.S. Attorney: amg0118.rel
BRADLEY A. HARSCH
FOR IMMEDIATE RELEASE
973-645-2734
Jan. 18, 2008
Thirteen People Indicted, Seven More Plead Guilty,
in $20 Million Home Equity Loan Scheme
Public Affairs Office 973-645-2888
Michael Drewniak, PAO
Breaking News: http://www.usdoj.gov/usao/nj/publicaffairs
NEWARK  A judge formally unsealed a 35-count Indictment today charging 13
individuals in a scheme to fraudulently obtain more than $20 million in home equity and
business lines of credit between February 2004 and November 2005. Seven more people
pleaded guilty today in the scheme, whose victims include at least 16 different lenders in
northern New Jersey, U.S. Attorney Christopher J. Christie announced.
The Indictment alleges that four of the defendants  Jacob Kim, 51, of Palisades Park; Jun
Hwang, 42, of Cliffside Park; Jeff Kim, 37, of Edgewater; and Justin Kim, 27, of Palisades
Park  were loan brokers with American Macro Growth (AMG), in Palisades Park. Jacob
Kim was AMGs president and also acted as a broker, according to the Indictment. The
remaining defendants were clients of AMG who allegedly used its services to fraudulently
obtain lines of credit. They are: James Park, 41, of Hackensack; Jin Hee Song, 35, of
Palisades Park; Tae Woo Lee, 42, of Palisades Park; Sun Hee Lim, 37, of Fort Lee; Hyun
M. Kim, 35, of Palisades Park; Dong Jin Kim, 53, of Palisades Park; Hye Sung Park, 37, of
Queens, N.Y.; Hyeong Ju Lee, 33, of Edgewater; and Ma Dung Kim, 50, of Maywood.
The Indictment alleges that AMG helped its clients use the same properties as collateral for
multiple home equity lines of credit or HELOCs, even though the loan amounts far
exceeded the value of the properties that were to serve as security. In one instance, the
Indictment alleges, an AMG client used less than $300,000 of equity in a Palisades Park
property to obtain approximately $2,137,000 in credit from nine different banks. According
to the Indictment, the scheme effectively stripped the banks of security for the loans.
In a HELOC, a borrower pledges the equity in the borrowers house or condominium as
security for the line of credit. The banks security interest in the house or condominium is
then publicly recorded so that other lenders will be aware of prior claims on the property.
According to the Indictment, AMG and its clients executed the scheme by closing on
multiple HELOCs in a short period of time so that the earlier lenders security interests
would not be publicly recorded at the time that later lenders closed on subsequent loans.
The Indictment also alleges that AMG misrepresented clients income and other important
information in order to increase the amounts that clients would be eligible to borrow.
According to the Indictment, AMG regularly submitted falsified income tax returns on
behalf of its clients while applying for lines of credit. The falsified income tax returns
grossly inflated the clients income to create the illusion that the applicants would be able to
repay the loans.
Six of the seven individuals who pleaded guilty in the scheme today were borrowers who
each used AMGs services to procure loans totaling between $750,000 and $1.9 million.
They are: Chul Chung, 43, of Ridgefield Park; Dea Hee Lee, 44, of Creskill; Ha Rim Park,
42, of Palisades Park; Junho Park, 34, of Little Ferry; Jeffrey Ryu, 42, of Fort Lee; and Sung Woo Son, 37, of Palisades Park.
Sin Ah Kim, 35, of Lindhurst also pleaded guilty and was an employee of AMG who helped
clients fraudulently obtain the lines of credit. Among the indicted individuals, Justin Kim
was arrested on Oct. 24 and Sun Hee Lim was arrested Jan. 9. The government expects
further arrests and pleas in the case.
Another aspect of the fraud, according to the Indictment, was that AMG helped clients
fraudulently obtain business lines of credit or BLOCs. Although the BLOCs required that
the borrower use the loan proceeds only for business purposes, AMG advised its clients to
use BLOCs to purchase residences or pay down mortgages in order to increase the equity in
already-existing residences. The clients then would use the residence to obtain multiple
HELOCs.
The Indictment further alleges that defendant James Park loaned money to AMG clients
which the clients used to pay down existing mortgages and thus increase the amounts they
could borrow in HELOCs. James Park allegedly made loans of approximately $200,000 and
$150,000 to two AMG clients who used the loans to pay down mortgages and obtain
multiple HELOCs. The Indictment further alleges that James Park obtained approximately
$1,441,900 in HELOCs from at least 8 different banks using less than $300,000 of equity as
security for the loans.
According to the Indictment, AMGs clients paid large commissions for AMGs assistance.
One client allegedly paid defendant Jun Hwang approximately $122,529 in commissions
for his help in obtaining approximately $1,718,300 in lines of credit from at least seven
different banks.
The victims of the scheme include Banco Popular, Bank of America, The Bank of New
York, Citibank, Commerce Bank, Fleet Bank, JP Morgan Chase Bank, HSBC Bank, Hudson
United Bank, North Fork Bank, PNC Bank, Sovereign Bank, Wachovia Bank, Washington
Mutual Bank, Wells Fargo Bank and Countrywide Home Loans, Inc.
Christie credited Special Agents of the FBI, under the direction of Special Agent in Charge
Weysan Dun, and Special Agents of the Federal Deposit Insurance Corporation Office of
Inspector General, under the direction of Special Agent in Charge Gary Sherrill.
The government is represented by Assistant U.S. Attorney Bradley A. Harsch of the
Criminal Division in Newark.
-end-
Last Updated 1/24/08
contact the FDIC OIG